U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




        National Telecommunications
                     and Information
                      Administration

                    Texas Public Safety
                          Interoperable
                 Communications Grant
            Award No. 2007-GS-H7-0044

                    Final Report No. OIG-11-007-A
                                 November 5, 2010




         FOR PUBLIC RELEASE




                     Office of Audit and Evaluation
                                                         UNITED STATES DEPARTMENT OF COMMERCE
                                                         Office of Inspector General
                                                         Washington, O.C, 20230

November 5,2010

MEMORANDUM FOR:
                Lawrence E. Strickling
                                Assistant Secretary for
                                 Communications and Information
                                National Telecommunications and
                                 In formation Administration
                                                      \




FROM:
                          Ann C. Eilers         rrwl
                                Principal Assistant Inspector General for
                                Audit and Evaluation

SUBJECT:	                       Final Audit Report No, OlG-II-007-A
                                Auditee: Texas Department of Public Safety, Division of
                                Emergency Management
                                PSIC Award No. 2007-GS-H7-0044

Attached is a copy of our final audit report of the Texas Public Safety Interoperable
Communications (PSIC) award for your action in accordance with Department Administrative
Order (DAO) 213-5, Audit Resolution and Follow-up, Our original audit report has been sent to
the recipient, who has until December 5, 20 10, to submit comments and supporting
documentation to you, A copy of our final audit report will be posted on the Office of Inspector
General's (OIG's) website pursuant to section 8L of the Inspector General Act of 1978, as
amended,

Under DAO 213-5, you have 60 calendar days from the date of this memorandum to reach a
decision on the actions you propose to take on each audit finding and recommendation and to
submit an audit resolution proposal to this office. The format for the proposal is shown in Exhibit
8 of the DAO, As applicable, your written proposal must include the rational and/or legal basis
for reinstating any questioned costs in the report and should reference any supporting
documentation you relied on. Your comments should also address the funds to be put to better
use cited in the report. Under the DAO, OIG must concur with your proposal before it may be
issued as a final determination and implemented. The DAO prescribes procedures for handling
any disagreements this office may have with the audit resolution proposal. Also, please copy us
when the audit determination letter is sent to the auditee.

Please direct any questions regarding this report to Jerry McMahan, Assistant Regional Inspector
General for Audits, at (404) 730-2065 and refer to the final audit report number listed above in
any related correspondence.

Attachment

cc:	   Milton Brown, NTIA Audit Liaison
       Kathy Smith, NTIA Chief Counsel
       Laura M. Pettus, NTIA PSIC Program Manager
       Daniel Meyerson, JD, NTIA Deputy Program Manager
                                                        UNITED STATES DEPARTMENT OF COMMERCE
                                                        Office of Inspector General
                                                        Washington. D.C. 20230




November 5,2010

Ms. Elizabeth M. Harman
Assistant Administrator
Grant Programs Directorate
Federal Emergency Management Agency
500 C Street, SW
Washington, DC 20472-3635

Dear Ms. Harman:

Attached is a copy our final audit report (OIG-I I-007-A) regarding Public Safety Interoperable
Communications (PSIC) grant awarded to the Texas Department of Public Safety, Division of
Emergency Management (award number 2007-GS-H7-0044) by the National
Telecommunications and Information Administration (NTlA).

Our original audit report has been sent to the recipient, who has until December 5, 2010, to
submit comments and supporting documentation to the Department of Commerce. NTlA will
conduct the audit resolution and follow-up in accordance with Department Administrative Order
(DAO) 213-5. A copy of the report will be posted on the Department of Commerce Office of
Inspector General's website pursuant to section 8L of the Inspector General Act of 1978, as
amended.

If you have any questions regarding this report, please call Jerry McMahan, Assistant Regional
Inspector General for Audits, at (404) 730-2065, and refer to the final audit report number above
in any related correspondence.

si1erelY,      ()

C>\    OVY'-   ~      ( ( t!' f ')
Ann C. Eilers
Principal Assistant Inspector General for
Audit and Evaluation

Attachment

cc:	    Richard L. Skinner, DHS Inspector General
        David Turner, DHS/FEMA Grant Programs Directorate
        Bradley A. Shefka, DHS Audit Liaison
        Penny McCormack, FEMA Audit Liaison
        Gina Norton, FEMA Audit Liaison
        Mildred Lloyd, DHS/FEMA Grant Programs Directorate Audit Liaison
        Mike Siviy, DHS OIG Grants Management
                                                         UNITED STATES DEPARTMENT OF COMMERCE
                                                         Office of Inspector General
                                                         Washington, D.C. 20230




November 5, 2010

Janice Bruno
SAA Administrator
Texas Department of Public Safety
Division of Emergency Management
5805 North Lamar Boulevard
Austin, TX 78752-01 13

Dear Ms, Bruno:

Attached is a copy of final audit report number OIG-II-007-A concerning the Public Safety
Interoperable Communications (PSIC) grant your agency received from the National
Telecommunications and Information Administration (award number 2007-GS-H7-0044).

This letter is notice of your opportunity to review the report and develop a complete response
that addresses each audit finding and recommendation. If you believe the report is incorrect, or if
you disagree with any findings or recommendations, it is important that you explain the error or
your reasons for disagreement and either submit evidence to the Department supporting your
contentions or reference any such evidence submitted previously, You also should explain how
each documentary submission supports your position; otherwise, we may be unable to assess the
information,

Your response must be postmarked no later than December 5, 2010. There will be no extensions
to this deadline, and you will have no other opportunity to submit comments, arguments, or
documentation before the Department makes a decision on the audit findings and
recommendations, The Department will consider your complete response in determining what
action to take with respect to our audit. Enclosure I explains administrative dispute procedures
available to you.

As you prepare your response, if you have any questions about this report or the process by
which the Department reaches a final decision, please call Jerry McMahan, Assistant
Regional Inspector General for Audits, at (404) 730-2065 and refer to final audit report
number OlG-I 1-007-A.

Please send your response (including documentary evidence) to

Lawrence E. Strickling
Assistant Secretary for Communications and Information
National Telecommunications and Information Administration
U,S, Department of Commerce
1401 Constitution Avenue, N.W.
Washington, D.C. 20230
Please send a copy of your response letter only to

Ms. Elizabeth M. Hannan
Assistant Administrator
Grant Programs Directorate
Federal Emergency Management Agency
500 C Street, SW
Washington, DC 20472-3635

Ann C. Eilers
Principal Assistant Inspector General for
Audit and Evaluation
U.S. Department of Commerce
1401 Constitution Avenue, N.W., Room 7886B
Washington, D.C. 20230

Jerry McMahan, Assistant Regional Inspector General for Audits
United States Department of Commerce
Office of Inspector General
Atlanta Regional Office of Audits
401 W. Peachtree Street, N.W., Suite 2742
Atlanta, GA 30308

After evaluation of your response, the audit action official may provide you with further
guidance or request clarification. Our final report, along with your response, will be posted on
OIG's website pursuant to section 8L of the Inspector General Act of 1978, as amended.

Sincer\y,


  ~/)'lM                £/~
Ann C. Eilers
Principal Assistant Inspector General for
Audit and Evaluation


Attachments

cc (w/o attach): Laura M. Pettus, NTIA PSIC Program Manager
                David Turner, DHS/FEMA Grant Programs Directorate
                John Keel, Texas Legislative Auditor
                                                                                        Enclosure 1
                                                                                        Page 1 of 2



                                    NOTICE TO AUDITEES

                                   Financial Assistance Audits



1. 	 Audit requirements applicable to a particular financial assistance award may be established
     by law, regulation, policy, or the terms of the recipient's financial assistance agreement with
     the Department of Commerce.

2. 	 Audit results will be reported to the bureau or office administering the financial assistance
     award and to you (the recipient/auditee), unless the Department’s inspector general
     determines it is in the government's interest to withhold the audit report.

3. 	 Audit results may lead to adverse consequences for you, including the following actions
     (which are subject to applicable laws and regulations):

     o	 suspension and/or termination of current awards;

     o	 referral of identified problems to other federal funding agencies and entities as deemed
        necessary for remedial action;

     o	 denial of eligibility for future awards;

     o	 cancellation of authorization for advance payment and substitution of reimbursement
        by check;

     o	 establishment of special conditions in current or future awards; and,

     o	 disallowance of costs, which could result in a reduction in the amount of federal
        payments, withholding of payments, offset of amounts due the government
        against amounts due you, or establishment of a debt and appropriate debt
        collection follow-up (including referrals to collection agencies).

     Because of these and other possible consequences, it is important that you take your
     responsibility to respond to audit findings seriously by providing explanations and evidence
     to support your position with respect to the disputed results.
                                                                                        Enclosure 1
                                                                                        Page 2 of 2


4. 	   You have the following opportunities to point out errors (of fact or law) that you believe
       were made in the audit, to explain other disagreements with audit findings and
       recommendations, to present evidence that supports your positions, and to dispute final
       determinations:

       o	 At any time during the audit, you may bring to the attention of the auditors 

          evidence you believe affects the auditors' work. 


       o	 At the completion of the audit on-site, as a matter of courtesy, you will usually be
          given the opportunity to discuss (during an exit conference) the preliminary audit
          findings and to present a clear statement of your position on the significant
          preliminary findings, including possible cost disallowances.

       o	 When the draft audit report is issued, you will have the opportunity to comment
          and to submit evidence during the 30 days after we transmit the report to you.
          (We will not extend this deadline.)

       o	 When the final audit report is issued, you will have the opportunity to comment
          and to present evidence during the 30 days after we transmit the report to you.
          (We will not extend this deadline.)

       o	 When the Department issues its decision (the "Audit Resolution Determination") on
          the audit report's findings and recommendations, you have the right to appeal for
          reconsideration within 30 calendar days after receiving the Determination Letter if
          monies are due the government. (We will not extend this deadline.) The
          Determination Letter will explain the specific appeal procedures.

       o	 Once you file an appeal or the appeal period has expired, the Department will not
          accept any further submissions concerning your dispute of its decisions. If it is
          determined that you owe money or property to the Department, the Department will
          take appropriate collection action but will not thereafter reconsider the merits of the
          debt.

       There are no other administrative appeals available in the Department.
                                   Report In Brief
                                                U.S. Department of Commerce Ofﬁce of Inspector General
                                                                   November 5, 2010



Why We Did this Review National Telecommunications and Information Administration
On September 30, 2007, the
National Telecommunications and
Information Administration (NTIA) Texas Public Safety Interoperable Communications Grant
awarded a $65,069,247 Public        PSIC Award No. 2007-GS-H7-0044 (OIG-11-007-A)
Safety Interoperable Communica-
tions (PSIC) grant to the State of
Texas to enhance interoperable      What We Found
emergency communications. NTIA
also required a minimum             Our audit covered the award period of October 1, 2007, through June 30, 2009, during which
20 percent matching share from      time the Texas Department of Public Safety’s (TxDPS) Governor’s Division of Emergency
nonfederal sources for the acquisi- Management claimed total costs of $2,207,092. In general, TxDPS appears to be on track to
tion and deployment of communica-
                                    complete its investments before the end of the award, but we did discover several areas of con-
tions equipment, and management
and administration costs.           cern. Specifically, we found the following:

The original award period ran from    • 	 TxDPS has not provided sufficient nonfederal funds to meet its matching share require-
October 1, 2007, to September             ment and has been incorrectly reporting its matching funds in its quarterly financial reports.
30, 2010. In November 2009, the           While the agency agrees with this finding, it continues to report incorrect amounts.
President signed an act extending
the award period to September 30,    • 	 In 11 out of 25 cases we reviewed, TxDPS did not fully comply with the grant’s require-
2011.                                    ments for drawing down funds within 30 days of disbursement and placing these funds in
                                         an interest-bearing account so that any accrued interest can be remitted to the U.S. Trea-
TxDPS was designated as Texas’s          sury. Based on this finding, we calculated that TxDPS needs to remit imputed interest of
state administrative agency to apply
                                         $1,205 to the Treasury. In response to our draft report, TxDPS provided information that it
for and administer PSIC funds.We
audited costs claimed by TxDPS
                                         had deposited the funds in an interest-bearing account; however, it still had not remitted the
to determine whether the recipient       interest to the U.S. Treasury.
complied with NTIA PSIC grant
guidelines and the Department of      • 	 TxDPS transferred a total of $1,265,226 from the budgets of several of its investments to
Homeland Security’s (DHS) award           another investment without requesting or receiving the needed approval from NTIA or the
terms and conditions.                     Federal Emergency Management Agency (FEMA).

Background
The Digital Television Transition     What We Recommended
and Public Safety Act of 2005
authorized NTIA, in consultation      We recommend the NTIA Assistant Secretary for Communications and Information, in conjunc-
with DHS, to implement the PSIC
                                      tion with FEMA’s Grant Programs Directorate, take the following actions:
program—a $1 billion one-time,
formula-based matching grant          • 	 Direct TxDPS to provide evidence that it has addressed the deficiencies in its accounting
program intended to enable public
                                           system that allowed the improper nonfederal matching share to be reported, and confirm
safety agencies to establish interop-
erable emergency communications            that the correct amount is currently being reported. If TxDPS cannot demonstrate that cor-
systems using reallocated radio            rective actions have been taken, the agency should be designated “high risk” and advance
spectrum.                                  payments suspended until corrective actions are implemented.

The Implementing Recommenda-           •	   Remind TxDPS of its obligations to (1) limit advances of federal funds to its immediate
tions of the 9/11 Commission Act            (30-day) cash needs, (2) deposit all advances in an interest-bearing account, and (3) remit
of 2007 requires the Commerce In-           to the federal government the interest earned on advances, including the $1,205 of imputed
spector General to conduct financial        interest mentioned above. Remitting this amount will enable these funds to be put to better
audits, over 4 years, of a representa-      use.
tive sample of at least 25 states or
territories receiving PSIC grants.     •	   Direct TxDPS to submit a modification request for the budget transfer between invest-
                                            ments, explaining how the PSIC project will benefit from these transfers.
U.S. Department of Commerce                                                                                   Final Report OIG-11-007-A

Office of Inspector General                                                                                            November 5, 2010




                                                                 CONTENTS


Introduction......................................................................................................................................1

Findings and Recommendations ......................................................................................................3

I. Investments Appear to Be on Schedule for Completion Before End of Grant.............................3

II. Matching Share Requirement in Process ....................................................................................3

III. TxDPS Did Not Fully Comply with Grant Terms and Conditions............................................4

       A.      Financial Status Reporting Requirement Not Met ...........................................................4

       B.      TxDPS Did Not Comply with Cash Drawdown Requirements .......................................5

       C.      TxDPS Did Not Comply with the PSIC Modification Policy .........................................6

IV.       Questioned Costs ..................................................................................................................6

Summary Results of Financial Audit ...............................................................................................8

Appendix A: Objectives, Scope, and Methodology.........................................................................9

Appendix B: Summary of Source and Application of Funds ........................................................11

Appendix C: Summary of Financial/Compliance Audit ................................................................12

Appendix D: Imputed Interest .......................................................................................................14

Appendix E: Recipient Response...................................................................................................15

U.S. Department of Commerce                                                            Final Report OIG-11-007-A

Office of Inspector General                                                                     November 5, 2010



                                               INTRODUCTION


On September 30, 2007, the National
Telecommunications and Information                               Public Safety Interoperable
Administration (NTIA) awarded a Public                           Communications Program
Safety Interoperable Communications (PSIC)
grant to the state of Texas to enhance 	                      The Digital Television Transition and Public
interoperable emergency communications.                       Safety Act of 2005 authorized NTIA, in
The grant provided federal funding of                         consultation with the Department of
$65,069,247, of which $63,836,923 required                    Homeland Security (DHS), to implement the
                                                              PSIC program─a $1 billion one-time,
nonfederal matching contributions. Federal
                                                              formula-based matching grant program
funds provided for acquisition and                            intended to enable public safety agencies to
deployment of communication equipment and                     establish interoperable emergency
management and administration (M&A) costs                     communications systems using reallocated
must be matched by nonfederal contributions                   radio spectrum.
of at least 20 percent of the total cost of those
activities. Statewide planning, planning and                  NTIA signed a memorandum of
coordination, and training costs do not require               understanding with DHS, under which DHS
matching share. The $63,836,923 provided for                  oversees and administers the PSIC
acquisition and deployment and M&A                            program.
represents 80 percent of the total cost of those
                                                              The Implementing Recommendations of the
activities, leaving a minimum nonfederal                      9/11 Commission Act of 2007 requires the
matching share requirement of $15,959,231.                    Commerce Inspector General to conduct
                                                              financial audits, over 4 years, of a
The award period runs from October 1, 2007,                   representative sample of at least 25 states
to September 30, 2011. On November 6,                         or territories receiving PSIC grants. The
2009, the President signed Public Law 111-                    Texas grant program is the second largest of
96, which extended the PSIC program beyond                    the 56 states and territories receiving
its original expiration date of September 30,                 awards.
2010. The new law extended the performance
period of all PSIC grants through September 30, 2011, and allowed for additional extensions,
through September 2012, on a case-by-case basis, if approved by the Assistant Secretary for
Communications and Information.

The governor of Texas designated the Texas Department of Public Safety’s (TxDPS) Governor’s
Division of Emergency Management as Texas’s state administrative agency to apply for and
administer PSIC funds.1 TxDPS prepared an investment justification, based on the NTIA PSIC
Program Guidance and Application Kit, which detailed individual communications projects
intended to achieve meaningful and measurable improvements in interoperability and fill gaps
identified in the statewide communications interoperability plan. The investment justification
had 10 investments (table 1), involving a total of 42 subrecipients, and was approved by NTIA
on April 3, 2008.


1 The PSIC program requires the governor of each state and territory to designate a state administrative agency to
apply for and administer PSIC funds. Administrative agencies are required to pass through no less than 80 percent of
the total award amount to local or tribal governments or authorized nongovernmental public safety agencies, unless
the local entity opts, via written agreement, to have the state agency retain and spend the funds on its behalf.


                                                         1

U.S. Department of Commerce                                            Final Report OIG-11-007-A

Office of Inspector General                                                     November 5, 2010



                      Table 1: Investment Justification and Funding
                                                            Non-Federal
                                         PSIC Funds              Match
  PSIC Investment Justification            Awarded           (Budgeted)               Total
1. State of Texas Multi-Agency
Interoperability Project                 $10,591,050          $2,040,000      $12,631,050
2. State of Texas Strategic
Technology reserve Project                  5,039,518          1,007,904         6,047,422
3. Multi-COG Communications
Network                                     8,501,075          1,700,215       10,201,290
4. Regional - Texas/Mexico Border
Interoperable Communications                9,117,464          1,813,493       10,930,957
5. Houston Urban Area
Interoperability Expansion                14,586,128           3,646,532       18,232,660
6. San Antonio Urban Area P-25
700 MHz Multi-Region
Evacuation/Border Security
Initiative                                  3,043,692            442,904         3,486,596
7. Regional Interoperability
Communication Upgrades                      7,444,443          1,487,689         8,932,132
8. Coastal Four-County Trunked
Radio Interoperability Expansion            1,798,271            454,567         2,252,838
9. Houston-Galveston Area
Council Regional Infrastructure
and Subscriber Units                        1,238,481            306,145         1,544,626
10. North Central Texas Regional
700 MHz Interoperability Overlay            1,657,048            216,955        1,874,003
Management and Administration               1,952,077            488,019        2,440,096
Statewide Planning                            100,000                             100,000
State Match                                                    2,354,808        2,354,808
Total                                     65,069,247          15,959,231       81,028,478
Source: TxDPS Investment Justification


States were required to include a prescribed strategic technology reserve in their investment
justifications. The strategic reserve is designed to pre-position, or secure in advance,
interoperable communications equipment for immediate deployment in an emergency situation
or major disaster. Texas’s prescribed strategic reserve amount was $5,039,518 and was included
as investment 2.




                                              2

U.S. Department of Commerce                                              Final Report OIG-11-007-A

Office of Inspector General                                                       November 5, 2010



                              FINDINGS AND RECOMMENDATIONS


In June 2009, we initiated an audit of costs claimed by TxDPS to determine whether it had
complied with NTIA PSIC grant guidelines and DHS award terms and conditions. The audit
covered the award period of October 1, 2007, through June 30, 2009, during which time the
recipient claimed total costs of $2,207,092. The objective of our audit was to determine whether
TxDPS was using its grant funds in accordance with federal requirements. In particular, we
assessed whether TxDPS (1) is on track to complete its interoperable communications
investment by September 30, 2011; (2) met the 20 percent matching share requirement for
acquiring and deploying interoperable communications equipment and M&A costs; (3) claimed
reasonable, allowable, and allocable costs under the award; and (4) complied with grant terms
and conditions. Appendix A outlines the objectives, scope, and methodology we used in the
audit. The following sections detail our findings with respect to each audit objective.

I. Investments Appear to Be on Schedule for Completion Before End of Grant

TxDPS anticipates completing the 10 investments by September 30, 2011. Our audit found
nothing to indicate that any of the investments would not be completed before the end of the
grant.

II. Matching Share Requirement in Process

In its approved investment justification, TxDPS budgeted the required 20 percent matching share
from nonfederal sources for the acquisition and deployment of interoperable communications
equipment, and M&A. The match is required by Section 3006 of the Digital Television
Transition and Public Safety Act of 2005, Public Law 109-171, the PSIC Program Guidance and
Application Kit, and the special award conditions.

We found that TxDPS’ budgeted matching share of $15,959,231 meets the minimum match
required by the PSIC grant. We did note that six subrecipients, with combined matching share
requirements of $1,765,927, have not provided documentation to TxDPS in support of their
matching share commitments. We discussed this issue with TxDPS officials who stated that the
six subrecipients will not be allowed to proceed with their PSIC-funded projects until TxDPS
receives evidence that matching share commitments are in place.

NTIA’s PSIC Program Guidance and Application Kit, section VI, part B, requires the match to
be expended at the same rate as the federal share. As of June 30, 2009, TxDPS had expended
$1,992,944 in federal funds and reported $214,148 in matching expenditures, which is less than
the required matching share for that level of federal expenditures. However, we were able to
verify that an additional $206,447 in nonfederal matching funds had been expended, but were not
included in the state’s financial reports. Thus, total nonfederal matching contributions were
$420,595 as of June 30, 2009. A summary of source and application of funds is provided in
appendix B. After accounting for the unreported matching expenditures, TxDPS still has not
fully provided sufficient nonfederal funds to meet its matching share requirement.




                                                3

U.S. Department of Commerce                                               Final Report OIG-11-007-A

Office of Inspector General                                                        November 5, 2010



III. TxDPS Did Not Fully Comply with Grant Terms and Conditions

We found TxDPS to be in compliance with PSIC requirements related to timely submission of
financial reports, but the reports themselves were not accurate. TxDPS complied with
requirements to pass PSIC funds to local public safety agencies. We found instances of
noncompliance in the areas of cash advances and approval for project scope modifications, as
described below.

A. Financial Status Reporting Requirement Not Met

We reviewed the financial status reports (SF-269) filed by TxDPS for the period October 1,
2007, through June 30, 2009. The PSIC Program Guidance and Application Kit, section VI, part
C.1, states that these reports must be filed within 30 days of the end of each calendar quarter for
every quarter the award is active, including partial calendar quarters and periods during which no
grant activity occurs. TxDPS submitted all of its financial status reports within the 30-day time
period.

In our draft report, we stated that TxDPS did not report the correct matching share amount on its
SF-269 for the period ended June 30, 2009. TxDPS had reported $214,148 in matching share
contributions, but we determined actual nonfederal matching share was $420,595, as mentioned
above. When we brought the discrepancy to the attention of TxDPS officials, they agreed that the
reported matching share was inaccurate. The officials stated that the incorrect amount had been
reported due to an error in TxDPS’ accounting system. Even though TxDPS agreed that its
reported nonfederal matching share was incorrectly reported as of June 30, 2009, it has not
corrected the error and continues to report inaccurate matching share amounts on its quarterly
financial reports.

TxDPS Response

TxDPS concluded that the amount shown in its accounting records is incorrect and that the actual
amount should have been $456,309. TxDPS stated that the correct amount will be reported on
the quarterly reports dated September 30, 2010. TxDPS’ complete response to our draft report,
excluding attachments, is included as appendix E.

OIG Comments

We concur with TxDPS’ stated corrective action; however, as we stated in our draft report, we
were only able to verify a matching share amount of $420,595.

Recommendation

We recommend that the NTIA Assistant Secretary for Communications and Information, in
conjunction with the FEMA Grant Programs Directorate, direct TxDPS to provide evidence that
it has addressed the deficiencies in its accounting system that allowed the improper nonfederal
matching share to be reported and that the correct amount is currently being reported. If TxDPS
cannot demonstrate that corrective actions have been taken, we recommend TxDPS be



                                                4

U.S. Department of Commerce                                               Final Report OIG-11-007-A

Office of Inspector General                                                        November 5, 2010



designated “high risk” and advance payments suspended until corrective actions are
implemented.

B. TxDPS Did Not Comply with Cash Drawdown Requirements

The PSIC Program Guidance and Application Kit, section VI, part B, page 31, states that
grantees should draw down funds as close to expenditure as possible, up to 30 days prior to
expenditure/disbursement. Advances of funds received by grantees must be placed in an interest-
bearing account, and interest earned must be remitted to the United States Treasury. We
reviewed 25 drawdowns to assess TxDPS’ compliance with PSIC requirements for advances of
federal funds. Excluding one immaterial item, we found 11 drawdowns, totaling $242,565, for
which TxDPS exceeded 30 days between receipt and disbursement. On August 31, 2009, TxDPS
returned $211,643 of the cash accumulated through drawdowns to the program.

In our draft report, we stated TxDPS did not place the advanced funds in an interest-bearing
account, as required by PSIC guidelines. In its response to our draft report, TxDPS provided
information that it had deposited the funds in an interest-bearing account. However, it had not
remitted the interest to the U.S. Treasury; therefore, we determined that imputed interest of
$1,205 is due the government. Grantees are allowed to retain up to $100 per year for
administrative expenses for all federal grants combined, and we allowed the full $100 for
simplicity of calculations. We calculated the imputed interest based on the U.S. Treasury
Department’s 13-Week Treasury Bill rate during the state’s fiscal year, pursuant to requirements
in Title 31, Code of Federal Regulations, § 205.19(b). See appendix D for details of our
calculation of imputed interest.

TxDPS Response

TxDPS stated that it placed the funds from all drawdowns in an interest-bearing account (the
Texas State Comptroller’s account), and that the Texas State Comptroller’s Accounting Policy
#23, “Earned Federal Funds,” is the current policy over how federal funds are deposited in the
State Comptroller’s account. The response further stated that the State Comptroller controls how
the money and interest earned is remitted. TxDPS stated it is taking the necessary steps to refund
to the U.S. Treasury the amount of interest accrued.

OIG Comments

The PSIC federal program requirement to deposit funds in an interest-bearing account and remit
that interest to the U.S. Treasury takes precedence over a state requirement. However, since the
state intends to remit the interest, we concur with its stated corrective action.

Recommendations

We recommend that the NTIA Assistant Secretary for Communications and Information, in
conjunction with the FEMA Grant Programs Directorate, remind TxDPS of its obligations to (1)
limit advances of federal funds to its immediate (30-day) cash needs, (2) deposit all advances in
an interest-bearing account, and (3) remit to the federal government the interest earned on
advances, including the $1,205 of imputed interest discussed above.


                                                5

U.S. Department of Commerce                                                  Final Report OIG-11-007-A

Office of Inspector General                                                           November 5, 2010




Funds to Be Put to Better Use

The return of imputed interest on the advance drawdown of $242,565 PSIC funds will permit
$1,205 to be put to better use.

C. TxDPS Did Not Comply with the PSIC Modification Policy

The PSIC Budget and Scope Modification Packet, section B, part 1, states that a written request
and prior approval by NTIA and FEMA are required for modifications to PSIC investments and
for budget and scope changes. A budget modification is defined as a transfer of funds among
categories that are expected to exceed 10 percent of either the total approved investment budget
or the budget for any individual investment category.

In our draft report, we stated that TxDPS transferred to investment 10 a cumulative total of
$1,265,226 originally budgeted for investments 1, 6, 7, and 9. TxDPS neither requested nor
received approval for these transfers. TxDPS stated that the funds were moved to better address
the needs of the project; however, this does not absolve TxDPS of the requirement for NTIA and
FEMA approval for the transfers.

TxDPS Response

TxDPS stated that its investment justification submission to NTIA dated December 5, 2007,
contained the wrong budgets for investment justifications 1, 6, 7, 9, and 10. TxDPS stated that it
readjusted the budget figures for the affected justifications, thinking that it had authority to do so
without written permission from NTIA. TxDPS also stated that it is now requesting NTIA
approval of the stated budget corrections.

OIG Comments

We concur with TxDPS’ stated corrective action.

Recommendation

We recommend that the NTIA Assistant Secretary for Communications and Information, in
conjunction with the FEMA Grant Programs Directorate, direct TxDPS to submit a modification
request for the budget transfer of $1,265,226, explaining how the PSIC project will benefit from
these transfers.

IV.    Questioned Costs

TxDPS claimed costs of $2,207,092 on its June 30, 2009, financial status report. We found that
$2,478 of claimed M&A costs lacked adequate supporting documentation; therefore, we
questioned this amount in our draft report.




                                                  6

U.S. Department of Commerce                                               Final Report OIG-11-007-A

Office of Inspector General                                                        November 5, 2010



TxDPS provided a spreadsheet that included a breakdown of costs with appropriate support for
the items, including the $2,478 we questioned in our draft report. Therefore, we have eliminated
the questioned cost.

V.     Follow-Up on Prior Audit Recommendations

As part of our audit, we reviewed the state of Texas’s Office of Management and Budget (OMB)
Circular No. A-133 audit report for the year ended August 31, 2008. Although the PSIC grant
was not part of the audit, we reviewed the report for issues that could have a direct and material
effect on the PSIC program. We found no issues that would concern the PSIC grant.




                                                7

U.S. Department of Commerce                                               Final Report OIG-11-007-A

Office of Inspector General                                                        November 5, 2010



                         SUMMARY RESULTS OF FINANCIAL AUDIT


The results of our interim cost audit for the period October 1, 2007, through June 30, 2009,
which are detailed in appendix C, are summarized as follows:


Costs Claimed                                                       $2,207,092
Add: Nonfederal Costs Not Previously Claimed                           206,447
Cost Accepted                                                       $2,413,539

Accepted Costs Not Subject to Match                                     $1,200
Accepted Costs Subject to Match                  $2,412,339
Federal Share Ratio                                    x 80%       1,929,871
Federal Funds Earned                                               1,931,071
Federal Funds Disbursed (a)                                        2,056,927
Excess Disbursements Due the Government                           $ 125,856

Interest Due the Government                                          $1,205 (b)

(a) Federal funds disbursed include total drawdowns of $2,268,570, as of June 30, 2009, less
    $211,643 of advanced funds that were returned to the government on August 31, 2009.
    Although the repayment was outside the scope of our audit period, we treated it as if it
    happened as of June 30, 2009.

(b) Imputed interest $1,305 (appendix D) less $100 allowance for administrative expenses, as
    discussed on page 5.




                                                8

U.S. Department of Commerce                                            Final Report OIG-11-007-A

Office of Inspector General                                                     November 5, 2010



                 APPENDIX A: OBJECTIVES, SCOPE, AND METHODOLOGY

The objective of our audit was to determine whether TxDPS was using its grant funds in
accordance with federal requirements. In particular, we assessed whether TxDPS (1) is on track
to complete its interoperable communications investments by September 30, 2011; (2) met the
minimum 20 percent match for acquiring and deploying interoperable communications
equipment, and M&A costs; (3) claimed reasonable, allowable, allocable costs under the award;
and (4) complied with grant terms and conditions.

The audit scope included a review of costs claimed during the award period of October 1, 2007,
through June 30, 2009. We conducted our audit fieldwork from June through September 2009 at
TxDPS in Austin, Texas, and at subgrantee sites in Houston, Beaumont, and Bryan, Texas.

To meet our objectives, we did the following:

   •	 reviewed investment documentation and discussed each investment with agency officials;
   •	 analyzed source documents related to the minimum 20 percent match for acquiring and
      deploying interoperable communications equipment and for M&A of the grant;
   •	 traced costs claimed to source documentation;
   •	 interviewed TxDPS officials and the Texas state legislative auditor and reviewed the
      state's OMB Circular No. A-133 audit report for the year ended August 31, 2008; and
   •	 reviewed pertinent laws, regulations, and guidance (listed below) against TxDPS’ PSIC
      activities and internal controls.

We evaluated TxDPS’ compliance with the following federal laws and regulations applicable to
PSIC grants:

   •	 Section 3006 of the Digital Television Transition and Public Safety Act of 2005, Public
      Law 109-171
   •	 Call Home Act of 2006, Public Law 109-459
   •	 Implementing Recommendations of the 9/11 Commission Act of 2007, Public Law 110-
      53
   •	 Public Safety Interoperable Communications Grants, Public Law 111-96
   •	 Title 15, Code of Federal Regulations, Part 24, Uniform Administrative Requirements for
      Grants and Agreements to State and Local Governments
   •	 PSIC Program Guidance and Application Kit, August 16, 2007
   •	 NTIA PSIC Grant Program Allowable Cost Matrix
   •	 NTIA PSIC Grant Program Frequently Asked Questions
   •	 OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments
   •	 OMB Circular A-133, Compliance Supplement, CFDA 11.555


                                                9

U.S. Department of Commerce                                               Final Report OIG-11-007-A

Office of Inspector General                                                        November 5, 2010



   •   Special Award Conditions
   •   Department of Commerce Financial Assistance Standard Terms and Conditions
   •   DHS, Office of Grant Operations, Financial Management Guide

We verified the validity and reliability of computer-processed data supplied by TxDPS by
directly testing data against supporting documentation. Based on our tests, we concluded the
computerized data were reliable for use in meeting our objectives.

We analyzed nonstatistical samples of TxDPS, and subrecipient transactions, generally focusing
on the highest dollar transactions and line items. Since we did not attempt to extrapolate findings
from sample analyses to all transactions, we believe our sampling methodology represented a
reasonable basis for the conclusions and recommendations included in our report.

We obtained an understanding of the management controls of TxDPS by interviewing TxDPS
officials, as well as examining policies and procedures, the state’s most recent single audit
report, and written assertions from TxDPS officials. Our report contains recommendations to
address TxDPS’ reporting of matching share, cash drawdowns, budget and scope modifications,
and undocumented costs.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

We performed this audit under the authority of Implementing Recommendations of the 9/11
Commission Act of 2007; the Inspector General Act of 1978, as amended; and Department
Organization Order 10-13, August 31, 2006.




                                                10

U.S. Department of Commerce                                             Final Report OIG-11-007-A

Office of Inspector General                                                      November 5, 2010



           APPENDIX B: SUMMARY OF SOURCE AND APPLICATION OF FUNDS


                    TEXAS DEPARTMENT OF PUBLIC SAFETY 

                   DIVISION OF EMERGENCY MANAGEMENT

               PUBLIC SAFETY INTEROPERABLE COMMUNICATIONS

                        GRANT NUMBER 2007-GS-H7-0044 

                    OCTOBER 1, 2007, THROUGH JUNE 30, 2009 


                                            Approved                   Receipts &
                                             Budget                     Expenses
                                              (a)                         (b)
SOURCE OF FUNDS:

Federal                                    $65,069,247                $2,056,927
Non-Federal                                 15,959,231                   420,595
Total                                      $81,028,478                $2,477,522

APPLICATION OF FUNDS:

Investment 1                               $12,631,050                $ 905,280
Investment 2                                 6,047,422                   391,346
Investment 3                                10,201,290                         0
Investment 4                                10,930,957                         0
Investment 5                                18,232,660                         0
Investment 6                                 3,486,596                         0
Investment 7                                 8,932,132                   506,574
Investment 8                                 2,252,838                         0
Investment 9                                 1,544,626                         0
Investment 10                                1,874,003                   166,510
M&A Costs                                    2,440,096                    22,034
Statewide Planning                             100,000                     1,200
State Match                                  2,354,808                   420,595
Total                                      $81,028,478                $2,413,539


Notes:

(a) Approved budgeted costs are for the period of October 1, 2007, through September 30, 2011,
    based on Texas’s approved investment justification.

(b) Receipts and expenses are for the period of October 1, 2007, through June 30, 2009.




                                               11

U.S. Department of Commerce                                            Final Report OIG-11-007-A

Office of Inspector General                                                     November 5, 2010



              APPENDIX C: SUMMARY OF FINANCIAL/COMPLIANCE AUDIT

                    TEXAS DEPARTMENT OF PUBLIC SAFETY,

                    DIVISION OF EMERGENCY MANAGEMENT

               PUBLIC SAFETY INTEROPERABLE COMMUNICATIONS

                        GRANT NUMBER 2007-GS-H7-0044 

                    OCTOBER 1, 2007, THROUGH JUNE 30, 2009 



                                                                  Results of Audit
                               Approved              Costs       Costs             Costs
Description                     Budget              Claimed    Questioned       Accepted

Investment 1                  $12,631,050      $ 905,280           $    0         $905,280
Investment 2                    6,047,422        391,346                0          391,346
Investment 3                   10,201,290              0                0                0
Investment 4                   10,930,957              0                0                0
Investment 5                   18,232,660              0                0                0
Investment 6                    3,486,596              0                0                0
Investment 7                    8,932,132        506,574                0          506,574
Investment 8                    2,252,838              0                0                0
Investment 9                    1,544,626              0                0                0
Investment 10                   1,874,003        166,510                0          166,510
M&A Costs                       2,440,096         22,034                0           22,034
Statewide Planning                100,000          1,200                0            1,200
State Match                     2,354,808        214,148      -(206,447)*          420,595

Total                         $81,028,478      $2,207,092     $(206,447)         $2,413,539



Costs Claimed                                                   $2,207,092 (a)
Add: Nonfederal Cost not Previously Claimed                      206,447 *
Cost Accepted                                                   $2,413,539

Accepted Costs Not Subject to Match                                $ 1,200 (b)
Accepted Costs Subject to Match                $2,412,339
Federal Share Ratio                                  x 80%       1,929,871
Federal Funds Earned                                             1,931,071
Federal Funds Disbursed                                          2,056,927
Excess Disbursements Due the Government                         $ 125,856

Interest Due the Government                                      $1,205 (c)




                                              12

U.S. Department of Commerce                                              Final Report OIG-11-007-A

Office of Inspector General                                                       November 5, 2010



Notes:

   (a) TxDPS reported total outlays of $2,207,092 on its June 30, 2009, financial status report.

   (b) Accepted costs not subject to the matching share requirement consist of $1,200 in the
       statewide planning category.

   (c) Imputed interest $1,305 (appendix D) less $100 allowance for administrative expenses, as
   discussed on page 5.




                                               13

U.S. Department of Commerce                                                     Final Report OIG-11-007-A

Office of Inspector General                                                              November 5, 2010



                              APPENDIX D: IMPUTED INTEREST




                                                                    No. of
                                                                               Interest
                                Drawn Down       Carry over          Days                  Imputed
              Date                                                             Rate for
                                  Amount          Balance          Interest                Interest
                                                                              the Period
                                                                  Incurred


 6/25/2008                          16,449.37                            5       1.940%          4.37

 7/31/2008                          14,709.07                            0       1.877%    $          -

 7/31/2008                                            16,449.37         31       1.877%         26.22

 8/31/2008                                            31,158.44         31       1.887%         49.94

 9/4/2008                           16,503.64                           26       1.607%         18.89

 9/30/2008                                            31,158.44         30       1.607%         41.15

 10/3/2008                          15,264.08                           28       1.436%         16.81

 10/7/2008                          22,640.42                           24       1.436%         21.38

 10/31/2008                                           47,662.08         31       1.436%         58.13

 11/7/2008                          27,831.73                           24       1.228%         22.47

 11/13/2008                         11,603.44                           18       1.228%          7.03

 11/31/2008                                           85,566.58         31       1.228%         89.24

 12/19/2008                         70,554.79                           12       1.082%         25.10

 12/31/2008                                       125,001.75            31       1.082%        114.87

 1/27/2009                          11,473.38                            4       0.806%          1.01

 1/31/2009                                        195,556.54            31       0.806%        133.87

 2/12/2009                           4,613.45                           16       0.712%          1.44

 2/28/2009                                        207,029.92            28       0.712%        113.08

 3/31/2009                                        211,643.37            31       0.642%        115.40

 4/28/2009

 4/30/2009                                        211,643.37            30       0.573%         99.68

 5/26/2009                          30,921.64         30,921.64          5       0.515%          2.18

 5/31/2009                                        211,643.37            31       0.515%         92.57

 6/30/2009                                        242,565.01            30       0.458%         91.31

 7/31/2009                                        242,565.01            31       0.400%         82.41

 8/31/2009                                        242,565.01            31       0.372%         76.64

 Total                               242,565.                                                  1,305




                                                14

U.S. Department of Commerce                                     Final Report OIG-11-007-A

Office of Inspector General                                              November 5, 2010



                              APPENDIX E: RECIPIENT RESPONSE





                                            15

U.S. Department of Commerce         Final Report OIG-11-007-A

Office of Inspector General                  November 5, 2010





                              16

U.S. Department of Commerce         Final Report OIG-11-007-A

Office of Inspector General                  November 5, 2010





(DEN-19671)



                              17

